1

    VA Office of Inspector General
                                     OFFICE OF AUDITS AND EVALUATIONS



                                                                           Department of 

                                                                          Veterans Affairs 

                                                                             FY 2013 Review of 

                                                                            VA’s Compliance With 

                                                                           the Improper Payments 

                                                                        Elimination and Recovery Act 





                                                                                               April 15, 2014
                                                                                               13-02926-112

                                   ACRONYMS 


FY             Fiscal Year
IPERA          Improper Payments Elimination and Recovery Act
IPERIA         Improper Payments Elimination and Recovery Improvement Act
PAR            Performance and Accountability Report
OIG            Office of Inspector General
OMB            Office of Management and Budget
VA             Veterans Affairs
VBA            Veterans Benefits Administration
VHA            Veterans Health Administration




         To Report Suspected Wrongdoing in VA Programs and Operations: 

                              Telephone: 1-800-488-8244 

                              Email: vaoighotline@va.gov

                (Hotline Information: http://www.va.gov/oig/hotline) 

                 Report Highlights: FY 2013 Review of
                 VA’s Compliance With the Improper
                 Payments Elimination and Recovery Act

Why We Did This Review                         steps needed to identify all types of
                                               improper payments.
We      conducted    this   fiscal   year
(FY) 2013 review to determine whether VA       What We Recommended
complied with the Improper Payments
Elimination and Recovery Act (IPERA).          We recommended the Under Secretary for
VA reported $1.1 billion in improper           Health implement the corrective action plan
payments in its FY 2013 Performance and        included in the PAR to reduce improper
Accountability Report (PAR). The OIG’s         payments for the State Home Per Diem
assessment of VA’s compliance with IPERA       program, and develop achievable reduction
for FY 2013 is based on FY 2012 data as        targets for that and Beneficiary Travel
reported by VA.                                programs. We also recommended the Under
                                               Secretary for Benefits ensure thorough
What We Found                                  procedures for testing sample items used to
                                               estimate improper payments for the
VA met five IPERA requirements for             Compensation and Post 9/11 G.I. Bill
FY 2013 by publishing a PAR, performing        programs.
risk assessments, publishing improper
payment estimates, providing information       Agency Comments
on corrective action plans, and reporting on
its payment recapture efforts. VA also         The Under Secretary for Health concurred
implemented a new risk assessment process      with Recommendations 1 and 2. We closed
in FY 2013 across all of its programs.         Recommendation 2 based on the actions
                                               already completed.
VA did not comply with two of seven
IPERA requirements for FY 2013. The            The Under Secretary for Benefits partially
Veterans Health Administration reported a      concurred with Recommendation 3, citing
gross improper payment rate of greater than    completed actions to enhance Compensation
10 percent for one program and did not meet    program testing. The Under Secretary did
reduction targets for two programs. This       not agree with a need to change the current
represents     an     improvement      over    Education test plan, but proposed an
FY 2012 when VA did not comply with four       acceptable alternative analysis to determine
of the seven IPERA requirements.               risk in Education payments. We will follow
                                               up on implementation of this action during
Nonetheless, we identified areas for           our next annual IPERA review.
improvement in the Veterans Benefits
Administration’s (VBA) IPERA reporting.
VBA underreported improper payments for
its Compensation program. Test procedures
for the Compensation program and one                    LINDA A. HALLIDAY
Education program also did not include               Assistant Inspector General
                                                     for Audits and Evaluations
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................4
 

    Finding 1              VA Programs Need To Comply Fully With IPERA ...........................................4
 

                           Recommendations ...............................................................................................6
 

    Finding 2              Areas for Improvement in VBA’s IPERA Reporting .........................................7
 

                           Recommendation.................................................................................................8
 

Appendix A                 Background .........................................................................................................9
 

Appendix B                 Scope and Methodology....................................................................................10


Appendix C                 Summary of FY 2012 and FY 2013 IPERA Compliance .................................12


Appendix D                 VA Programs Reported in the FY 2013 PAR ...................................................13


Appendix E                 Under Secretary for Health Comments .............................................................14


Appendix F                 Under Secretary for Benefits Comments ..........................................................16


Appendix G                 Office of Inspector General Contact and Staff Acknowledgments...................24


Appendix H                 Report Distribution ...........................................................................................25

                                                   FY 2013 Review of VA’s Compliance With IPERA



                    INTRODUCTION
Objective	          We conducted this fiscal year (FY) 2013 review to determine whether VA
                    complied with requirements of the Improper Payments Elimination and
                    Recovery Act (IPERA).

OMB                 The Office of Management and Budget (OMB) Circular A-123, Appendix C,
Requirements        Requirements for Effective Measurement and Remediation of Improper
                    Payments, specifies that each agency’s Inspector General review improper
                    payment reporting in the agency’s annual Performance and Accountability
                    Report (PAR). The purpose of the review is to determine if the agency
                    complies with IPERA. According to OMB guidance, compliance with
                    IPERA means that the agency completed the following:

                    	 Published a PAR for the most recent fiscal year and posted that report
                       and any accompanying materials required by OMB on the agency Web
                       site
                    	 Conducted a specific risk assessment for each program or activity that
                       conforms with Title 31, United States Code, Section 3321(if required)
                    	 Published improper payment estimates for all programs and activities
                       identified as susceptible to significant improper payments under its risk
                       assessment (if required)
                    	 Published programmatic corrective action plans in the PAR (if required)
                    	 Published and met annual reduction targets for each program assessed to
                       be at risk and measured for improper payments
                    	 Reported a gross improper payment rate of less than 10 percent for each
                       program and activity for which an improper payment estimate was
                       obtained and published in the PAR
                    	 Reported information on its efforts to recapture improper payments

                    OMB requires that the Office of Inspector General (OIG) issue a report
                    annually assessing VA compliance with IPERA within 120 days of VA’s
                    issuance of the PAR.




VA Office of Inspector General                                                                   1
                                                    FY 2013 Review of VA’s Compliance With IPERA


Improper            OMB Circular A-123, Appendix C defines an improper payment as follows.
Payment
Definition                  An improper payment is any payment that should not have
                            been made or that was made in an incorrect amount under
                            statutory, contractual, administrative, or other legally
                            applicable requirements.           Incorrect amounts are
                            overpayments or underpayments that are made to eligible
                            recipients (including inappropriate denials of payment or
                            service, any payment that does not account for credit for
                            applicable discounts, payments that are for the incorrect
                            amount, and duplicate payments). An improper payment also
                            includes any payment that was made to an ineligible recipient
                            or for an ineligible good or service, or payments for goods or
                            services not received (except for such payments authorized by
                            law). In addition, when an agency's review is unable to
                            discern whether a payment was proper as a result of
                            insufficient or lack of documentation, this payment must also
                            be considered an improper payment.

Data Reported       VA reported improper payment data based on the previous fiscal year
for FY 2013         activity, as permitted by OMB Circular A-123, Appendix C. As such, VA
Report
                    presented FY 2012 improper payment data in the FY 2013 PAR. The OIG’s
                    assessment of VA’s compliance with IPERA for FY 2013 is based on the
                    reported FY 2012 data.

Prior Reviews       The OIG has reported on VA’s prior compliance with IPERA. Specifically,
                    our Review of VA’s Compliance with the Improper Payments Elimination
                    and Recovery Act for FY 2012 (Report No. 12-04241-138, March 15, 2013)
                    concluded that VA did not comply with four of seven IPERA requirements
                    and the Veterans Health Administration’s (VHA) estimation methodology
                    could be improved. Appendix C provides a summary of VA’s areas of
                    compliance with IPERA for FY 2012.

                    For FY 2011 we also reported that VA did not comply with two of seven
                    requirements and needed to improve its improper payment estimation
                    methodology for five programs. See our report, Review of VA’s Compliance
                    with the Improper Payments Elimination and Recovery Act
                    (Report No. 12-00849-120, March 14, 2012).

                    Prior to the required reporting under IPERA, we performed our Audit of VA’s
                    Implementation of Executive Order 13520, “Reducing Improper Payments”
                    (Report No. 10-02892-251, August 12, 2011). We concluded that VHA’s
                    FY 2009 risk assessment did not adequately assess the level of risk
                    associated with its programs, and the results were not valid. Further, the
                    Veterans Benefits Administration (VBA) did not have an adequate process to
                    ensure compliance with the reporting requirements. To address improper
                    payment challenges identified in our August 2011 report, VHA conducted


VA Office of Inspector General                                                                2
                                                  FY 2013 Review of VA’s Compliance With IPERA


                    formal risk assessments and a review of all programs to establish a new
                    baseline and to accurately assess susceptibility to improper payments.
                    Further, VBA reviewed a statistically valid sample of debts exceeding
                    $1,667 and reported high-dollar overpayments.

Other               	 Appendix A provides additional background information.
Information
                    	 Appendix B outlines the scope and methodology for this review.
                    	 Appendix C compares VA’s performance in complying with IPERA
                       requirements in FYs 2012 and 2013.
                    	 Appendix D lists VA programs reported in the FY 2013 PAR.
                    	 Appendixes E and F provide management comments on a draft of this
                       report.




VA Office of Inspector General                                                              3
                                                    FY 2013 Review of VA’s Compliance With IPERA



                    RESULTS AND RECOMMENDATIONS
Finding 1           VA Programs Need To Comply Fully With IPERA

                    VA did not comply with two of seven IPERA requirements for
                    FY 2013. Specifically,

                    	 VHA reported a gross improper payment rate greater than 10 percent for
                       one reportable program. VHA also did not meet reduction targets for two
                       programs. Further, two VHA programs missed their reduction targets for
                       FY 2013, in comparison with one program last year.

                    	 VBA became compliant in FY 2013 with payment recapture reporting
                       requirements and provided statistically based estimates of improper
                       payments as required. VHA also implemented our prior recommendation
                       to improve its estimation methodologies.

                    In total, VA met five of the seven IPERA requirements by publishing a PAR
                    on VA’s Web site, performing risk assessments to identify programs
                    susceptible to significant improper payments, publishing improper payment
                    estimates, providing information on corrective action plans, and reporting on
                    its payment recapture efforts.

Improper            For FY 2013, VHA’s State Home Per Diem program was the only program
Payment Rate        with an improper payment rate greater than 10 percent reported by VA.
Exceeded
10 Percent
                    OMB Circular A-123, Appendix C requires a gross improper payment rate of
Rate Exceeds        less than 10 percent for each program susceptible to significant improper
10 Percent          payments and published in the PAR.

                    The improper payment rate for the State Home Per Diem program has
                    fluctuated over the last 3 years. The PARs for FYs 2011, 2012, and
                    2013 reported rates of 13.69, 4.75, and 15.94 percent, respectively. VHA
                    attributed the high rate for FY 2011 to a large number of exceptions
                    identified at one site. For FY 2013, VHA credited the high rate to changes in
                    a medical certification form that required new fields to be completed. In
                    contrast, VHA reported that the Non-VA Care Fee program became
                    compliant with a 9.64 percent improper payment rate for FY 2013—just
                    below the 10 percent threshold.

Reduction           VA published improper payment rates and reduction targets in the
Targets Not         FY 2013 PAR as required. However, the State Home Per Diem and
Met
                    Beneficiary Travel programs did not meet their reduction targets.
                    Specifically, their reduction targets were 9.00 and 8.50 percent, respectively,
                    and their reported improper payment rates were 15.94 and 9.32 percent.
                    VHA said that it missed its target for the State Home Per Diem program
                    because of a greater number of errors than expected resulting from changes


VA Office of Inspector General                                                                   4
                                                   FY 2013 Review of VA’s Compliance With IPERA


                    in a medical certification form. VHA reported that the Beneficiary Travel
                    program did not meet its reduction target because of a change in its sampling
                    methodology and a higher than expected error rate for special mode
                    transportation claims. OMB requires agencies to publish and meet annual
                    reduction targets for each program determined to be at risk and measured for
                    improper payments.

                    Last year, we reported that the Non-VA Care Fee program did not meet its
                    reduction target. However, the program’s published improper payment rate
                    of 9.64 percent met the reduction target of 9.90 percent for FY 2013. VHA
                    attributed this improvement to system enhancements.

                    For FY 2012, we could not follow up on whether the Pension program met
                    its reduction target, which it had missed for FY 2011, because VBA
                    combined the Pension and Compensation programs into one program for
                    reporting improper payment rates. For FY 2013, VBA again separated the
                    programs, so the reduction target reported in the FY 2012 PAR for the
                    combined program was no longer applicable.

Areas of            VA implemented a new agency-wide process for reporting payment
Compliance          recapture activity for FY 2013. OMB requires agencies to report the
                    amounts collected from recapture audits, develop recapture audit targets,
                    provide an aging of outstanding overpayments, and report overpayments
                    recaptured outside of payment recapture audits. For FY 2012, we noted that
                    VBA did not report amounts collected through its activities to recapture
                    improper payments. For FY 2013, VBA provided payment recapture data
                    for all the required categories and these actions brought VA into compliance
                    with this requirement.

                    VA took significant action to improve improper payment estimation
                    methodologies for all reported programs. OMB Circular A-123, Appendix C
                    requires that VA’s methodology for estimating improper payments be
                    statistically valid unless OMB approves a different methodology. For
                    FY 2012 reporting, VBA did not use statistically valid methodologies for
                    two of its three reported programs, and VHA did not achieve the required
                    statistical precision although it used approved methodologies.         For
                    FY 2013 reporting, VA hired a contractor to develop a statistically valid
                    approach that complied with OMB Circular A-123, Appendix C
                    requirements, according to management. Our review of those methodologies
                    confirmed they were statistically valid and in line with OMB guidance.

                    VA also implemented a new risk assessment process in FY 2013 across all of
                    its programs. VA used a systematic process to identify all programs to be
                    assessed for risk, reconciled the related disbursements with the Statement of
                    Budgetary Resources, and then performed risk assessments for each
                    program.



VA Office of Inspector General                                                                 5
                                                   FY 2013 Review of VA’s Compliance With IPERA


                    In total, VA met five of seven IPERA requirements. VA published a PAR,
                    performed risk assessments, published improper payment estimates,
                    provided information on its corrective action plans, and reported on its
                    payment recapture efforts. VA’s reported improper payments also decreased
                    significantly in comparison with FY 2012—from $2.2 billion to
                    $1.1 billion—which VA attributed to implementing statistically valid
                    estimation methodologies for all programs and other corrective actions.

Conclusion          VA made significant progress in improving its IPERA compliance by
                    meeting five of seven compliance criteria for FY 2013 compared with only
                    three for FY 2012. VA needs to strengthen its efforts to meet the remaining
                    two IPERA requirements to ensure all programs have improper payment
                    rates below 10 percent and to meet their reduction targets.

                    Recommendations

                    1.	 We recommended the Under Secretary for Health implement the
                        corrective action plan included in the Performance and Accountability
                        Report to reduce improper payments for the State Home Per Diem
                        program.

                    2.	 We recommended the Under Secretary for Health develop achievable
                        reduction targets for the State Home Per Diem and Beneficiary Travel
                        programs.

Management          The Under Secretary for Health concurred with our recommendations,
Comments            indicating that VHA has started implementing its corrective action plan to
and OIG
Response
                    reduce improper payments for the State Home Per Diem program. The
                    Under Secretary stated that actions to establish achievable reduction targets
                    for the State Home Per Diem and Beneficiary Travel programs have already
                    been completed. As such, we have closed Recommendation 2, and will
                    follow up on VA’s performance related to both recommendations during our
                    next annual IPERA review. The Under Secretary for Health’s complete
                    response is included in Appendix E of this report.




VA Office of Inspector General                                                                 6
                                                    FY 2013 Review of VA’s Compliance With IPERA


Finding 2           Areas for Improvement in VBA’s IPERA Reporting

                    VBA’s test procedures for the Compensation program and one Education
                    program did not include some steps necessary to identify all types of
                    improper payments. As a result, the reported improper payments for the
                    Compensation program were understated, but still remained well below the
                    10 percent threshold for IPERA compliance. For the one Education
                    program, VBA reported no improper payments in the FY 2013 PAR, but
                    more complete test procedures would help increase the reliability of these
                    results.

Accuracy in         VBA underreported improper payments for its Compensation program.
VBA Reporting       From VBA’s sample of 400 Compensation payments, the OIG reviewed
Could Be
Improved
                    21 payments related to temporary 100 percent disability evaluations or
                    traumatic brain injury claims. Of the 21 payments reviewed, we identified
                    two related to temporary 100 percent disability evaluations that lacked
                    routine medical examinations required to support veterans’ benefits.

                    Specifically, VBA policy requires a temporary 100 percent disability
                    evaluation for a service-connected disability following a veteran’s surgery or
                    when specific treatment is needed. At the end of a mandated period of
                    convalescence or treatment, VA Regional Office staff must request a follow-
                    up medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation. VBA did not count the two payments
                    discussed above as improper payments. However, according to OMB
                    Circular A-123, Appendix C, when an agency’s review is unable to discern
                    whether a payment was proper as a result of insufficient or a lack of
                    documentation, this payment must be considered an improper payment.

Better Test         VBA’s test procedures for the Compensation program did not include a step
Procedures          to check for the medical examinations required to support temporary
Needed
                    100 percent disability evaluations. We recalculated VBA’s improper
                    payment estimate for the Compensation program to include the two
                    additional improper payments. Consequently, the estimate increased from
                    approximately $321 million to $565 million. The improper payment rate
                    also increased from 0.67 percent to 1.17 percent. By the time of our review,
                    a subsequent examination had been completed but a decision was still
                    pending for one claim. An examination had not been completed for the other
                    claim.

                    Additionally, we reviewed the procedures that VBA used to evaluate its
                    sample for the Post 9/11 G.I. Bill program. VBA reported no improper
                    payments for this program in the FY 2013 PAR. However, we noted that
                    VBA’s procedures did not include verification of information provided by
                    education institutions. VBA responded that it conducts routine compliance
                    surveys at schools and training establishments, during which time it reviews
                    documentation supporting education benefit payments. VBA considers the


VA Office of Inspector General                                                                  7
                                                    FY 2013 Review of VA’s Compliance With IPERA


                    surveys to be a compensating control that it can also rely on to estimate
                    improper payments under IPERA. However, we believe this process may
                    not be adequate for VBA to fully identify improper payments as part of its
                    statistical sample.

Other Matters       VA addressed other matters we mentioned in last year’s report. Specifically,
                    we did not note any exceptions this year concerning VA’s version control
                    processes for IPERA reporting. VA also used updated comprehensive
                    procedures for FY 2013 to comply with IPERA requirements, which
                    addressed our recommendation to improve policy.

Conclusion          VBA needs to strengthen its test plans for the Compensation and Post 9/11
                    G.I. Bill programs. Although VBA used statistical methodologies to support
                    its IPERA reporting, thorough evaluation of the underlying sample is
                    necessary in order for users to rely on the results.

                    Recommendation

                    3.	 We recommended the Under Secretary for Benefits ensure thorough
                        procedures for testing sample items used to estimate improper payments
                        for the Compensation and Post 9/11 G.I. Bill programs.

Management          The Under Secretary for Benefits partially concurred with this
Comments            recommendation, indicating that VBA had already enhanced the
and OIG
Response
                    Compensation program’s improper payment test plan for FY 2014.
                    However, as related to the Education program, the Under Secretary believed
                    our report did not offer empirical evidence or findings that school-reported
                    enrollment data had a high risk of error. The Under Secretary also indicated
                    that OMB Circular A-123, Appendix C allowed VBA to focus testing on
                    individual high-risk transaction points in the payment life cycle. Based on
                    the results from such testing, the Under Secretary believed that school
                    reporting was not a high-risk transaction in the education payment life cycle.

                    Although the Under Secretary did not believe changes to the Education
                    program testing approach were necessary, the Under Secretary stated that
                    VBA will conduct additional analysis of available data on the accuracy of
                    school-reported information. The analyses will be used to determine whether
                    changes are needed in Education’s improper payment test plan. The Under
                    Secretary’s complete response and action plans are included in Appendix F
                    of this report.

                    We consider the Under Secretary’s proposed risk-based approach to be an
                    acceptable alternative in response to our recommendation, provided that
                    VBA obtain OMB’s approval prior to implementation and document the
                    decision and subsequent actions in VA’s PAR, in accordance with OMB
                    Circular A-123, Appendix C. We will follow up on VBA’s corrective
                    actions during our next annual IPERA review.


VA Office of Inspector General                                                                  8
                                                   FY 2013 Review of VA’s Compliance With IPERA


Appendix A          Background

IPERA and           IPERA significantly amended the Improper Payments Information Act of
OMB                 2002 and repealed the Recovery Auditing Act. OMB Circular A-123,
Requirements
                    Appendix C provides requirements for implementing IPERA.

                    Under IPERA, each agency must periodically review and identify its
                    programs and activities that may be susceptible to significant improper
                    payments. OMB defined significant improper payments as gross annual
                    improper payments exceeding both 2.5 percent of program outlays and
                    $10 million of all program or activity payments made during the fiscal year
                    reported, or $100 million in gross improper payments. OMB delayed the
                    implementation of a 1.5 percent threshold until FY 2014.

                    Agencies are to identify susceptible programs through periodic risk
                    assessments performed on all programs. VA conducted risk assessments for
                    all of its identified programs in FY 2013. VA reported the programs
                    identified as susceptible in its annual PAR.

                    For each program identified as susceptible, the agency generally is required
                    to report in its PAR:

                    	 A statistically valid estimate, or an estimate approved by OMB, of the
                       improper payments
                    	 Corrective action plans for reducing estimated improper payments,
                       including a discussion of the causes of those improper payments, for
                       programs with improper payment estimates greater than $10 million
                    	 Program-specific targets for reducing improper payments that have been
                       approved by OMB

                    Overall, VA reported $1.1 billion in improper payments in its FY 2013 PAR.
                    As allowed by OMB Circular A-123, Appendix C, VA opted to report
                    improper payment data based on the prior year, and therefore presented
                    FY 2012 improper payment data in its FY 2013 PAR.




VA Office of Inspector General                                                                9
                                                   FY 2013 Review of VA’s Compliance With IPERA


Appendix B          Scope and Methodology

Scope               We conducted our review work from August 2013 through March 2014 at
                    the VA Central Office located in Washington, DC. Our review focused on
                    improper payment information reported in VA’s FY 2013 PAR, as required
                    by IPERA.

Methodology         To assess VA’s compliance with IPERA, we reviewed the relevant portion of
                    VA’s FY 2013 PAR, Part IV, “Other Accompanying Information,” as
                    published on VA’s Web site, for compliance with OMB’s seven compliance
                    requirements. We also reviewed VA policy and interviewed VHA, VBA,
                    and Office of Management officials to gain an understanding of VA’s
                    IPERA reporting controls.         We reviewed for reasonableness VA’s
                    FY 2013 risk assessments but did not validate management’s conclusions.
                    Our statistician reviewed the statistical validity of sampling methodologies
                    for the programs reported in the PAR and performed independent
                    calculations to verify the reported sample estimates and associated margins
                    of error were correct. We reviewed a small number of payments from
                    VBA’s sample for the Compensation program, as well as test plans for the
                    Compensation program and one Education program. We also reviewed for
                    reasonableness VA’s corrective action plans reported in the PAR.

Fraud               The review team assessed the risk that fraud, violations of legal and
Assessment          regulatory requirements, and abuse could occur during this review. The
                    review team exercised due diligence in staying alert to any fraud indicators.
                    We did not identify any instances of fraud during this review.

Data Reliability    Information published by VA in the FY 2013 PAR provided the primary
                    basis for our evaluation of VA’s compliance with IPERA. To assess the
                    reliability of VA’s published information, we reviewed the statistical
                    methodologies that VA applied to payment data and identified appropriate
                    data sources. Management reported that payment data for VHA’s statistical
                    estimates came from VA’s Financial Management System. VBA officials
                    said they obtained payment data from their Enterprise Data Warehouse for
                    the Compensation, Pension, and Education programs. They reported using
                    the Enterprise Data Warehouse and Financial Management System to obtain
                    payment data for the Vocational Rehabilitation and Employment program.

                    We did not perform our own independent risk assessments of VA’s
                    programs. We did not reevaluate VA’s sample transactions to determine if
                    VA correctly identified improper payments, except for a small nonstatistical
                    selection from VBA’s sample for the Compensation program. We also did
                    not develop independent statistical estimates or verify payment recapture
                    data. We designed our procedures to determine whether VA complied with
                    IPERA according to OMB’s seven compliance criteria—not to attest to the
                    accuracy of VA’s reporting. We believe our procedures to assess data
                    reliability were sufficient to support our review objective.


VA Office of Inspector General                                                                10
                                                  FY 2013 Review of VA’s Compliance With IPERA


Government          We conducted this review in accordance with the Council of the Inspectors
Standards           General on Integrity and Efficiency’s Quality Standards for Inspection and
                    Evaluation.




VA Office of Inspector General                                                             11
                                                      FY 2013 Review of VA’s Compliance With IPERA


Appendix C          Summary of FY 2012 and FY 2013 IPERA Compliance

                    Table 1 provides a comparison of VA’s performance in complying with
                    IPERA requirements for FYs 2012 and 2013.

                         Table 1. Exceptions To Complying With IPERA

          Requirement                               FY 2012                             FY 2013


    Publish a PAR                No exceptions                                    No exceptions

    Conduct a specific risk
    assessment for each          No exceptions                                    No exceptions
    program
    Publish improper             VBA methodologies were not statistically valid
    payment estimates as         for the Compensation, Pension, and Vocational No exceptions
    appropriate                  Rehabilitation and Employment programs

    Publish corrective action
                                 No exceptions                                    No exceptions
    plans

                                 Non-VA Care Fee (reduction target not met)       State Home Per
                                                                                  Diem program
                                                                                  target not met
    Publish and meet
                                 Pension (unable to determine if program met
    reduction targets
                                 reduction target because VA combined the         Beneficiary Travel
                                 Compensation and Pension programs for            program target not
                                 FY 2012)                                         met
    Report a gross improper
                                                                                  State Home Per
    payment rate of less than    Non-VA Care Fee (12.0 %)
                                                                                  Diem (15.94%)
    10 percent

    Report information on        VBA did not report amounts for recapture audit
                                                                                No exceptions
    recapture efforts            activity

    Source: VA OIG based on VA’s FY 2012 and FY 2013 PARs and OIG determinations of IPERA compliance




VA Office of Inspector General                                                                         12
                                                FY 2013 Review of VA’s Compliance With IPERA


Appendix D          VA Programs Reported in the FY 2013 PAR

                    Table 2 shows the outlays and gross improper payment rates and amounts
                    that VA reported in the FY 2013 PAR. Improper payment totals include
                    both overpayments and underpayments.


                    Table 2. Improper Payment Reporting—VA FY 2013 PAR
                                (Based on FY 2012 Actual Data)
                                          (in millions)

                                                                  Improper
                                                                                 Improper
                         Program                     Outlays       Payment
                                                                                 Payments
                                                                  Percentage

    Beneficiary Travel                                   $749         9.32         $69.74

    CHAMPVA                                              $924         2.26         $20.92

    Non-VA Care Fee                                    $4,447         9.64       $429.07

    State Home Per Diem                                  $848        15.94       $135.23

    Supplies and Materials                             $2,230         0.11          $2.53

    Compensation                                      $48,181         0.67       $321.10

    Pension                                            $5,268         1.75         $92.43

    Vocational Rehabilitation and Employment             $786         0.27          $2.15

    Education Chapter 33                               $8,769            0              0

    Education Chapter 1606                               $146         0.33          $0.48

    Education Chapter 1607                                $88         0.44          $0.39

     Total VA                                         $72,436                      $1,074
    Source: VA’s FY 2013 PAR




VA Office of Inspector General                                                           13
                                                        FY 2013 Review of VA’s Compliance With IPERA


Appendix E            Under Secretary for Health Comments



                  Department of                                 Memorandum
                  Veterans Affairs

          Date:	    March 24, 2014

          From:	    Under Secretary for Health (10)

          Subj:	    OIG Draft Report, FY 2013 Review of VA’s Compliance With the Improper
                    Payments Elimination and Recovery Act (VAIQ 7451938)

            To:     Assistant Inspector General for Audits and Evaluations (52)

                    1. I have reviewed the draft report and concur with the recommendations.
                       Attached is the Veterans Health Administration’s corrective action plan for
                       the report’s recommendations.

                    2. If you have any questions, please	 contact Karen Rasmussen, M.D.,
                       Director Management Review Service (10AR) at (202) 461-6643, or by
                       email at VHA10ARMRS2@va.gov.




                      Attachment




VA Office of Inspector General                                                                       14
                                                 FY 2013 Review of VA’s Compliance With IPERA


                       VETERANS HEALTH ADMINISTRATION (VHA)

                                   Action Plan 


OIG Draft Report, Department of Veterans Affairs, FY 2013 Review of VA’s
Compliance With the Improper Payments Elimination and Recovery Act
(VAIQ 7451938)

Date of Draft Report: March 10, 2014

Recommendations/                        Status                      Completion
Actions                                                             Date

Recommendation 1. We recommend the Under Secretary for Health implement the
corrective action plan included in the Performance and Accountability Report to
reduce improper payments for the State Home Per Diem program.

VHA Comments

Concur

VHA’s Chief Business Office (CBO) has started to implement the corrective action plan
included in the Performance Accountability Report to reduce improper payments for the
State Home Per Diem program (See 2013 VA Performance and Accountability Report
Published December 16, 2013, Part IV-12).

                                        In Progress          December 2016

Recommendation 2 We recommend the Under Secretary for Health develop
achievable reduction targets for the State Home Per Diem and Beneficiary Travel
programs.

VHA Comments

Concur

Achievable reduction targets for the State Home Per Diem Program have been developed
for Fiscal Year 2014. In addition, VHA has established a target of 9.3 percent for improper
payments in the Beneficiary Travel (BT) Program. This target performance is anticipated to
be achievable based on deployment of the BT Dashboard, through implementation of BT
Veterans Health Information Systems and Technology Architecture enhancements and with
the introduction of internal controls such as the BT Eligibility Review and BT Data Analytic
tools.

                                        Completed


Veterans Health Administration
March 2014



VA Office of Inspector General                                                            15
                                                        FY 2013 Review of VA’s Compliance With IPERA


Appendix F            Under Secretary for Benefits Comments



                  Department of                                Memorandum
                  Veterans Affairs

          Date:     March 26, 2014

          From:     Under Secretary for Benefits (20)

          Subj:     OIG Draft Report—FY 2013 Review of VA’s Compliance With the Improper
                    Payments Elimination and Recovery Act VAIQ 7451770)

            To:     Assistant Inspector General for Audits and Evaluations (52)
                    1. Attached is VBA’s response to the OIG’s Draft Report FY 2013 Review of
                       VA’s Compliance With the Improper Payments Elimination and Recovery
                       Act.

                    2. Questions may be referred to Christopher Denno, Program Analyst, at
                       461-9125.




                      Attachments




VA Office of Inspector General                                                                   16
                                                FY 2013 Review of VA’s Compliance With IPERA


                   Veterans Benefits Administration (VBA)

                        Comments on OIG Draft Report

FY 2013 Review of VA’s Compliance With the Improper Payments Elimination and 

                           Recovery Act (IPERA)


The Veterans Benefits Administration provides the following comments:

VBA concurs with OIG’s finding regarding areas for improvement in VBA’s IPERA
reporting for the Compensation program. However, regarding the Education program,
the OIG draft report does not offer empirical evidence or findings that indicate school-
reported enrollment data has a high risk of error. VBA conducts oversight of school-
reported enrollment information through the compliance survey program that measures
compliance with VA reporting requirements. Additionally, VBA conducts quarterly high-
dollar overpayment reviews that detect instances of improper school reporting of
enrollment information.

OMB Circular A-123, Appendix C, Part I. G., authorizes agencies to focus testing on
individual high-risk transaction points in the payment lifecycle. In the Fiscal Year (FY)
2012 High-Dollar Overpayment Reports, VBA projected 4,052 high-dollar overpayments
to be improper due to incorrect reporting of enrollment information by schools. The
4,052 high-dollar overpayments represent less than 0.1 percent of all education
payments made in FY 2012. Based on this information, VBA feels that school reporting
is not a high-risk transaction in the education payment lifecycle.


The following comments are submitted in response to the recommendation in the
OIG Draft Report:

Recommendation 3: We recommend the Under Secretary for Benefits ensure thorough
procedures for testing sample items used to estimate improper payments.

VBA Response: Concur in part. In March 2014, VBA enhanced the Compensation
improper payment test plan for FY 2014. A copy of the enhanced test plan is attached
(Attachment A). The test plan is a modified version of the checklist that is currently
being utilized by Compensation Service, Systematic Technical Accuracy Review staff
when reviewing cases for accuracy. In addition, to ensure accuracy improvement, only
employees with a rating background will review cases for improper payments involving
rating determinations. VBA requests closure of this recommendation as related to the
Compensation program.

As related to the Education program and referenced in the comments above, VBA does
not agree that the evidence supports changes in the current Education test plan.
However, Education Service will conduct additional analysis of available data on the
accuracy of school-reported information to determine if it is a high-risk transaction in the
education payment lifecycle. This analysis will be used to determine if changes are
needed in the Education improper payment test plan. This analysis will be completed
by August 31, 2014.


VA Office of Inspector General                                                           17
                                                    FY 2013 Review of VA’s Compliance With IPERA




                                 Compensation Service
          Improper Payments Elimination and Recovery Improvement Act (IPERIA)
                       FY 2014 SAMPLING METHODOLOGY
Purpose:
To document the sampling methodology used to select the Department of Veterans Affairs (VA)
Veterans Compensation Program improper payments sample for Fiscal Year (FY) 2014.

Background:
In 2013, the Veterans Benefits Administration (VBA) performed a risk assessment (RA) for all its
programs and identified Compensation as a high-risk program to sample and review for FY 2014
IPERIA compliance.

A program is considered high-risk if the improper payments activity from the prior year exceeds (1)
$10,000,000 of all program or activity payments and 1.5 percent of program outlays; or (2)
$100,000,000. The improper payment amount from the FY 2013 PAR for the Compensation
Program was $321,100,000, thus making the program high risk for FY 2014.

The table below shows the total “IPERIA in-scope” payments for the high-risk program as reported
in the RA testing.


                                 VBA Program           Payment Universe


                          Compensation                  $   48,174,492,820


Compensation’s Sample Design for 2013
For Compensation, irregular or one-time payments were not included for IPERA testing in
previous fiscal years. Beginning in FY 2013, all payments made were included. Typically,
Compensation payments are consistent, following a standard schedule. Analysis of the universe
of payments for Compensation showed that stratifying by payment size into five strata reduces
the payment variability significantly. The design will ensure a proper representation of the
payment universe.

Sampling Methodology
Systematic random sampling technique will be used to select samples within each strata for the
Compensation Program. For this technique, the payments within a stratum are ordered in size of
payment and a random number assigned to the payment. The use of a random number ensures a
random sort of the payments having the same payment amount. Each stratum has a skip factor,
which is calculated as the total number of payments for the strata divided by the number of
payments to be sampled. Once the skip factor has been determined for a stratum, a random start
value is chosen between 1 and the skip factor(s). Then every 5th payment is selected. This
technique of sampling ensures a consistent representation of the payment distribution for the
stratum.



VA Office of Inspector General                                                                  18
                                                     FY 2013 Review of VA’s Compliance With IPERA


Review
Compensation Service will request the cases from regional offices. The review will be conducted
by Compensation Service Central Office employees in Washington, D.C. The reviewers will
also be given a template to track each case reviewed. After the review, the results will be
analyzed by the Procedures Assistant Director and briefed to the Compensation Service Director.

Test Plan
The attached Excel Sheet lists the attributes the reviewer seeks to determine if a payment is
improper or not.

                                 IPERIA REVIEW CHECKLIST

 Regional Office Number _______                              Claim Number _________________
                                                             Name of Recipient _____________

 Amount of Payment ___________                               SSN of Recipient _______________

 Date of Payment ______________


                                                                                 YES   NO   N/A

                           CLAIM ELIGIBILITY
 A1) Was an application or claim submitted?

 Method: Review VA Form 21-526, 21-526EZ or other informal claim
 documentation.    Was the form properly completed and appropriately
 signed/executed by applicant?

                        MILITARY ELIGBILITY
 B1) Was Active Duty Status Confirmed?

 Method: Review Form DD214 Certification of Release or Discharge from
 Activity Duty Status. Provide comment if form is unavailable or status unable
 to be confirmed.

 Note: Veterans with a dishonorable discharge are not permitted to receive
 Compensation benefits.

                           MEDICAL ELIGIBILITY
 C1) Were all medical disability claimed issues addressed based upon review
 of VA 21-526 or equivalent documentation?
 C2) Were all inferred and/or ancillary issues addressed?
 C3) Was the grant or denial of all issues correct based upon review of rating
 decision, deferral forms and/or notes?
 C4) Does each approved medical disability claim listed have supporting
 evidence? (Please list supporting documentation in the WP/Ref Column)
 C5) Was the percentage evaluation assigned correct (including combined
 evaluation)?



VA Office of Inspector General                                                                    19
                                                      FY 2013 Review of VA’s Compliance With IPERA


 C6) Was the claim based upon manual documentation that predates the
 Evaluation Builder? If so, was the appropriate support available and was it
 properly authorized?
 C7) Was the percentage of disability rating assigned to the Veteran available?
 If an Evaluation Builder print out was in the case file, did that percentage
 match the percentage the Veteran is currently being awarded?
 C8) Did the RVSR override the rating percentage from the Evaluation
 Builder?
 C9) If so, did the RVSR provide appropriate reason and approved rationale
 (bases)?
 C9) Was this case a "special claim" that required a secondary review, and was
 a second signature present?

 C10) Did the beneficiary receive any form of "Special Monthly
 Compensation"?

 Method: Review the medical documentation to ensure the approved disability
 evaluations match the criteria for increased benefits due to the need for A&A
 or being housebound and that correct SMC codes were used.

                              AWARD ACTIONS
 D1) Are all effective dates affecting payment correct?

 Method: Review the date stamp from the VA Form 21-526, 21-526EZ or other
 equivalent application documentation.
 D2) Were partial benefits granted and were they granted promptly, while
 developing other issues?

 Method: Review rating decision, deferral forms, notes or other equivalent
 application documentation.
 D3) Were all payment rates and withholdings correct and payments adjusted
 in accordance with the payment rate tables?
 D4) Were all payment dates correct?
 D5) Was the appropriate second signature documented?

                          DEPENDENCY ISSUES
 E1) Did beneficiary claim dependents?

 Method: Review Form 21-686c Declaration of Status of Dependents on file.
 Provide comment if other source was used to verify dependents.
 E2) Was a dependent spouse correctly established or removed?

 Method: Review documentation such as, but not limited to, marriage
 certificates, divorce decrees, disability documentation or equivalent.
 E3) Were dependent children correctly established or removed?

 Method: Review documentation such as but not limited to birth certificates,
 divorce agreements, disability documentation or equivalent.
 E4) Did beneficiary claim a child in school between the ages of 18 and 23?



VA Office of Inspector General                                                                 20
                                                       FY 2013 Review of VA’s Compliance With IPERA


 Method: Review VA Form 21-674, Request for Approval of School
 Attendance. Provide comment if other source was used to verify dependents.
 E5) Were dependent parents correctly established or removed, taking into
 account, documentation of parental status to the Veteran and their current
 income situation?
 E6) Was a surviving spouse correctly established or removed?

 Method: Review documentation such as, but not limited to, marriage
 certificates, death certificates or equivalent.
 E7) Were surviving children correctly established or removed?

 Method: Review documentation such as, but not limited to, birth certificates,
 divorce decrees or equivalent.




                            ADJUSTMENTS
 F1) Were required adjustments accomplished and correct?

 Method: Review documentation such as, but not limited to, hospital
 admittance and /or discharge, or arrest/incarceration and/or release/parole, or
 active duty.
 F2) Was restoration of benefits correct? Were rates correct and entitlement
 correct based upon effective dates?

 Method: Review documentation such as, but not limited to, hospital discharge,
 or release/parole.
 F3) Was the beneficiary on Drill Pay at the time of payment?

 Was a future payment adjusted to account for the beneficiary's time on Drill
 Pay?

 Was the beneficiary listed on the file received from DMDC for March and/or
 September?
 F4) Was the beneficiary being hospitalized at the expense of VA at the time of
 payment?

           POST DETERMINATION – APPROVAL OF CLAIM
 G1) Was the claim approved in VBMS, VETSNET, or other manual
 documentation as appropriate?
 G2) Was the award document authorized?
 G3) Was the award/payment over $25,000 dollars? If so, did the payment
 have the three approvals required.

                         MATCHING PROGRAMS
 H1A) Was the beneficiary on the SSA Death Match list at time of payment?
 This would be identified by a work item in the system. If yes, was a monetary
 adjustment made at the correct date?



VA Office of Inspector General                                                                  21
                                                       FY 2013 Review of VA’s Compliance With IPERA


 H1B) Was the claim listed on the VETSNET “800 Series Work Item Report”
 under categories 833a (SSA Death DOB Mismatch), 833b (SSA Death
 Mismatch), or 833c (SSA Death C&P Matched)? If a monetary adjustment
 was required, did it occur at the correct date? Was the adjustment for the
 correct amount?
 H2) Was the beneficiary on the Duplicate Payments list at time of payment?
 This would be identified by a work item in the system. If yes, was a monetary
 adjustment made at the correct date?
 H3) Was the beneficiary on the Veterans on Active Duty in Receipt of VA
 Benefits list at time of payment? This would be identified by a work item in
 the system. If yes, was a monetary adjustment made at the correct date?
 H4) Was the beneficiary on the Bureau of Prisons Match list at time of
 payment? This would be identified by a work item in the system. If yes, was a
 monetary adjustment made at the correct date?
 H5) Was the beneficiary on the SSA Prison Match list at time of payment?
 This would be identified by a work item in the system. If yes, was a monetary
 adjustment made at the correct date?

 H6) Was the beneficiary on the 100-Year-Old Review list at the time of
 payment? This would be identified by a work item in the system. If yes, was a
 monetary adjustment made at the correct date?

                                 PAYMENTS
 I1) Was the beneficiary an eligible recipient for the benefit award?
 I2) Was there a duplicate payment made to the beneficiary?

 Method: Review award screen within SHARE.
 I3) Was the claim approved, but the payment has not yet received by the
 beneficiary?
 I4) Was all the appropriate documentation provided to support the payment
 made?
 I5) Was the payment amount correct based upon supporting documentation?
 I6) Was the payment proper at time of disbursement, but later become
 improper (e.g., death of beneficiary in the month)?

 Was overpayment/underpayment that resulted from legislative action/program
 design?
 I7) Was the payment proper at time of disbursement, but recorded or
 accounted for inaccurately or inappropriately (i.e. right amount but wrong
 process)?

              POST PAYMENT RECOUPMENT/OVERSIGHT
  J1) Was claim payment tested subject to post payment review by STAR
 Team?
  J2) Was that payment deemed to have had any errors?
  J3) Was RO notified of the corrective action taken for that payment?  _____ _____ ____
  J3a) Did RO take corrective action?
  J4) Was the payment subject to any adverse action by the VA? Were the
 beneficiary's payments later reduced or terminated?



VA Office of Inspector General                                                                  22
                                                      FY 2013 Review of VA’s Compliance With IPERA




                               ROOT CAUSES
 K1) Effective Date?    (Training)
 K2) Evaluation Error? (Training)
 K3) Eligibility Error? (Training)
 K4) Proper Notification from Veteran/Payee Error? (i.e. delay in notification
 of changed status)

 Describe the root causes(s) noted and note whether referred to management.

                         IMPROPER PAYMENT
   L1) Overpayment incurred?
   L2) Underpayment incurred?
   L3) Other




VA Office of Inspector General                                                                 23
                                            FY 2013 Review of VA’s Compliance With IPERA




Appendix G          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	       For more information about this report, please
                                          contact the Office of Inspector General at
                                          (202) 461-4720.
                       Acknowledgments	   Sue Schwendiman, Director
                                          Nora Stokes, Director
                                          Alex Biggs
                                          Steven Cucina
                                          Kyle Flannery
                                          Lee Giesbrecht
                                          Sunday Okurume
                                          Marie Orlofski
                                          Michelle Santos-Rodriguez
                                          Nelvy M. Viguera Butler
                                          Mark Ward
                                          John Weaver




VA Office of Inspector General                                                        24
                                                  FY 2013 Review of VA’s Compliance With IPERA




Appendix H          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




   This report is available on our Web site at http://ww.va.gov/oig.




VA Office of Inspector General                                                              25
